2311 Douglas Street Na ~ E-Mail Address:
Legal B i efs contact @cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-

MARY E. CANNING,
Petitioner,
v.
CREIGHTON UNIVERSITY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6801 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of September, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL AOTARY State of Kebraska ( bed ritter~ & Chk
RENEE J, GOSS 9. a

Hy Comm. Exp. Soplernber 8, 2623

Affiant 41258

 

Notary Public
